        APPLICATION OF YEAR 2000 LESSONS LEARNED



Report No. D-2001-175                    August 22, 2001



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
ASD(C3I)              Assistant Secretary of Defense (Command, Control,
                         Communications, and Intelligence)
CFO                   Chief Financial Officer
CIO                   Chief Information Officer
CIP                   Critical Infrastructure Protection
DISA                  Defense Information Systems Agency
DOT&E                 Director, Operational Test and Evaluation
PSA                   Principal Staff Assistant
Y2K                   Year 2000
                       Office of the Inspector General, DoD
Report No. D-2001-175                                                  August 22, 2001
    (Project No. D2001AS-0006)

                  Application of Year 2000 Lessons Learned

                                 Executive Summary

Introduction. During the late 1990s, DoD Components applied extensive efforts and
expended significant resources towards preparing for the year 2000 conversion. As
shown in the Office of Management and Budget 11th Quarterly Progress Report,
“Department of Defense Status of Year 2000 Efforts,” November 15, 1999, DoD
tracked 2,367 mission-critical and 7,267 nonmission-critical systems. The DoD also
operated 637 military installations around the world and in the United States and relied
on supporting infrastructure systems that were also vulnerable to year 2000 problems.
In addition, the DoD had 15 centralized mainframe computer sites comprising 351
computer domains in operation on January 1, 2000. More than one-third of the Federal
Government’s mission-critical systems were in the DoD. The DoD year 2000
challenge represented a substantial undertaking in scope, magnitude, and complexity
that far exceeded any other Federal department. The enormous efforts that DoD
undertook to ensure year 2000 readiness were largely successful. Since
January 1, 2000, the common theme of year 2000 lessons learned by both the private
and public sectors has been the in-depth awareness by managers and users of an
organization’s dependency on information technology and of the interdependencies
among organizations, commercial vendors, and systems.

Objectives. Our objective was to assess how widely and successfully the DoD had
applied the lessons learned from the year 2000 conversion experience to other
information technology programs and management issues.

Results. Since the year 2000 rollover, many DoD Components adapted management
experiences gained from the year 2000 conversion and reused and updated data
compiled during those efforts, such as system inventories, thin-lines, contingency plans,
and configuration management. The reuse of data and adaptation of management
experiences were largely driven by individual actions within the DoD Components and
not by the DoD Chief Information Officer. As a result, the DoD Components initiated
and took commendable but varied steps to use year 2000 lessons learned in managing
their information technology systems, whereas the DoD Chief Information Officer
missed opportunities to readily lead the way in managing information assurance and
information technology investments (finding A).

The DoD Chief Information Officer had not readily adapted year 2000 experiences to
managing information assurance and information technology investments. As a result,
the task of responding to congressional and Office of Management and Budget
requirements for ensuring that systems and networks are reasonably secure, particularly
with respect to the Government Information Security Reform requirements, and for
complying with the Clinger-Cohen Act, has been made even more difficult (finding B).

Summary of Recommendations. We recommended that the Chief Information
Officer, DoD, establish a written DoD management plan for information assurance
compliance that will oversee the certification and accreditation process required by
DoD Instruction 5200.40 and respond to the requirements of Government Information
Security Reform. We also recommended that the Chief Information Officer, DoD,
assess the cost-effectiveness of purchasing new licenses for analysis and renovation
tools to use in detecting defects or abnormalities in software; implement a mission or
business area approach for managing information technology investments in accordance
with the Clinger-Cohen Act and DoD Directive 5000.1; and implement an oversight
process for complete repair, retirement, or replacement of systems that used date-
windowing techniques during the year 2000 conversion process.

Management Comments. The Acting Assistant Secretary of Defense (Command,
Control, Communications, and Intelligence) concurred with the findings and
recommendations, stating that management directed the Government Information
Security Reform Integrated Process Team to develop a plan for Government
Information Security Reform implementation that leveraged the assessment mechanism
from the Defense Information Technology Security Certification and Accreditation
Process. Management will also continue to assess the commercial market for analysis
and renovation tools, and will consider publishing guidelines to assist in determining
the best mix of tools. Additionally, the Deputy Chief Information Officer will
undertake a thorough review and reengineering of information technology investment
and acquisition oversight. The new information technology management and oversight
concept includes portfolios and families of systems reviews, which are a mission or
business area approach to managing information technology. A discussion of
management comments is located at finding B of the report and the complete text is in
the management comments section.

Audit Response. The Acting Assistant Secretary of Defense (Command, Control,
Communications, and Intelligence) comments were responsive except for comments on
the DoD management plan. The implementation plan developed by the Government
Information Security Reform Integrated Process Team primarily focuses on the
Government Information Security Reform requirements for FY 2001. The Assistant
Secretary of Defense (Command, Control, Communications, and Intelligence) should
also have a DoD management plan that oversees and provides guidance on the
certification and accreditation of information systems and networks, using the DoD
information technology registry as the starting point. We request that the Assistant
Secretary of Defense (Command, Control, Communications, and Intelligence) provide
additional comments by September 20, 2001.




                                           ii
Table of Contents

Executive Summary

Introduction
     Background                                                          1
     Objectives                                                          3

Findings
     A. Application of Year 2000 Lessons Learned                         4
     B. DoD Chief Information Officer Application of Year 2000
          Lessons Learned                                               13

Appendixes
     A. Audit Process
          Scope                                                         21
          Methodology                                                   21
          Prior Audit Coverage                                          22
     B. Matrix of Applied Year 2000 Lessons Learned                     23
     C. Categories of Lessons Learned and Lasting Impact of Year 2000   24
     D. Report Distribution                                             26

Management Comments
     Acting Assistant Secretary of Defense (Command, Control,
       Communications, and Intelligence)                                28
Background
    Year 2000 Conversion Efforts. During the late 1990s, DoD Components
    applied extensive efforts and expended significant resources towards preparing
    for the year 2000 (Y2K) conversion. DoD spent an estimated $3.6 billion in its
    efforts to accomplish Y2K conversion, monitor activities during the rollover and
    leap year, and react to the problems that did occur. The DoD portion was about
    44 percent of the total amount that the Federal Government spent on Y2K
    efforts.

    The scope and complexity of the Y2K problem for DoD was unparalleled in the
    Federal Government. As shown in the Office of Management and Budget
    11th Quarterly Progress Report, “Department of Defense Status of Year 2000
    Efforts,” November 15, 1999, DoD tracked 2,367 mission-critical and 7,267
    nonmission-critical systems. The DoD also operated 637 military installations
    around the world and in the United States and relied on supporting infrastructure
    systems that were also vulnerable to Y2K problems. In addition, the DoD had
    15 centralized mainframe computer sites comprising 351 computer domains in
    operation on January 1, 2000. More than one-third of the Federal
    Government’s mission-critical systems were in the DoD. The DoD Y2K
    challenge represented a substantial undertaking in scope, magnitude, and
    complexity that far exceeded any other Federal department.

    The Assistant Secretary of Defense (Command, Control, Communications, and
    Intelligence) [ASD(C3I)] serves as the DoD Chief Information Officer (CIO).
    By using the system inventory and interdependency data, establishing an overall
    DoD Year 2000 Management Plan, and working through the Senior Steering
    Group, the DoD CIO played a prominent role in managing the progress of the
    Y2K conversion effort. The Deputy Secretary of Defense chaired monthly DoD
    Y2K Steering Group meetings to review progress toward achieving readiness for
    Y2K. Participants of the meetings included senior DoD leaders, such as the
    Under Secretaries of Defense; Service Under Secretaries; Vice Chief of Staff of
    the Army; Vice Chief of Naval Operations; Assistant Commandant of the
    Marine Corps; Director, Operational Test and Evaluation; Principal Staff
    Assistants from the Office of the Secretary of Defense; DoD agency CIOs; and
    Joint Staff representatives. The final Senior Steering Group meeting was held
    on February 9, 2000.

    The enormous efforts that DoD undertook to ensure Y2K readiness were largely
    successful. For example, only 61 out of 1,059 logistics systems experienced
    notable failures during or following January 1, 2000. Of the 61 systems with
    failures, 60 were nonmission-critical systems that did not go through end-to-end
    testing. Technicians were able to correct the Y2K problem for the one mission-
    critical system, the Streamlined Automated Logistics Transmission System,
    within hours of the failure because of their experience with a near-identical
    problem during Y2K testing.




                                        1
Principal Staff Assistants. The Principal Staff Assistants (PSAs) for the Office
of the Secretary of Defense report directly to the Secretary or the Deputy
Secretary of Defense and are responsible for their respective business functional
processes such as health affairs, personnel, communications, logistics, and
weapon systems. During the Y2K conversion, the PSAs were responsible for
coordinating the end-to-end testing for their respective business function
processes. The PSAs also had various oversight responsibilities for their
community systems. For example, the PSA for Communications served as the
Office of the Secretary of Defense (C3I) Y2K coordinator and oversaw
approximately 600 mission-critical and 500 mission-essential systems.

Lesson Learned Reports. Since January 1, 2000, the common theme of
Y2K lessons learned by both the private and public sectors has been the in-depth
awareness by managers and users of an organization’s dependency on
information technology and of the interdependencies among organizations,
commercial vendors, and systems. Report 106-244 from the FY 2000
DoD Appropriations Bill directed DoD to provide a report to the congressional
Defense committees by March 15, 2000, on Y2K lessons learned, emphasizing
which additional programs should be continued and what lessons could be
applied to information assurance. The ASD(C3I), Air Force, and Joint Staff
prepared reports on Y2K lessons learned, while the Navy provided an undated
document. See Appendix A for audit coverage by the Air Force, Army, and
Navy on Y2K lessons learned.

          Department of Defense. The ASD(C3I) report, dated
March 15, 2000, detailed the DoD efforts to ensure Y2K readiness and
identified the most important lessons to be used in future efforts to secure
information infrastructures. Lessons learned, applicable to DoD and other
Federal agencies, included an increased awareness of the need to cooperate on
cross-cutting issues, the dependence on information technology systems, and the
importance of computer professionals. The lessons learned for CIOs included
the importance of partnerships, centralized guidance with decentralized
execution, and an accurate inventory of information technology. According to
the ASD(C3I) report, the DoD lessons learned provide a roadmap for improving
information technology management, and the DoD CIO would monitor their
implementation.

          Air Force. According to the Air Force Year 2000 Final Report, the
Air Force collected more than 400 Y2K lessons learned suggestions from the
Major Commands, Direct Reporting Units, and Field Operating agencies. The
Air Force consolidated the suggestions into 60 lessons and recommendations.
Some key lessons learned included the need for improved resource management,
including configuration management, procuring independent verification and
validation tools, implementing code-scanning processes, a comprehensive
information technology infrastructure database, and operational and system
architectures at the mission level.

         Joint Staff. Volume One of the Joint Staff Year 2000 Campaign Plan
summarizes 12 lessons learned that were presented to the Deputy Secretary of
Defense by the Joint Staff Y2K Task Force Leader. The lessons included
reusing data compiled for Y2K efforts for other information technology issues,
incorporating information technology issues into routine exercises and training,


                                    2
     and developing a prototype Joint Operational Architecture. According to the
     Year 2000 Campaign Plan, the results of, and lessons learned from, the
     Y2K conversion process were to be maintained and used in future endeavors.

              Navy. The Navy provided an undated document on Y2K lessons
     learned that stated that Navy Fleet, Systems Command, and Major Claimant
     representatives met to review the reasons for the success with Y2K conversion
     and to capitalize on the Navy investment of resources for Y2K preparations.
     The document summarized the key findings and presented recommendations for
     improvements in future information systems management. Some of the key
     recommendations included broadening the duties and responsibilities of the
     Navy CIO, establishing a methodology for obtaining and maintaining current
     configuration information, and continuing the development and expansion of
     land-based laboratory interoperability testing. The document stated that steps
     were already underway to implement some of the recommendations.
     Furthermore, the document recommended that, as an enterprise, the Navy
     should embrace those initiatives and leverage the Y2K lessons learned to meet
     information technology challenges.

Objectives
     Our objective was to assess how widely and successfully DoD applied the
     lessons learned from the Y2K conversion to other information technology
     programs and management issues. See Appendix A for a discussion of the audit
     scope and methodology.




                                        3
            A. Application of Year 2000 Lessons
               Learned
            Since the year 2000 rollover, many DoD Components adapted
            management experiences gained from the Y2K conversion and reused
            and updated data compiled during those efforts, such as system
            inventories, thin-lines, contingency plans, and configuration
            management. The reuse of data and adaptation of management
            experiences were largely driven by individual actions within the DoD
            Components and not by the DoD CIO. As a result, the DoD
            Components initiated and took commendable and varied steps to use
            Y2K lessons learned in managing their information technology systems,
            whereas the DoD CIO missed opportunities to readily lead the way in
            managing information assurance and information technology
            investments. (Finding B discusses these missed opportunities.)

Reuse of Year 2000 Inventory Database
     The FY 2001 DoD Authorization Act Section 811, “Acquisition and
     Management of Information Technology,” requires the DoD CIO to maintain an
     inventory of DoD mission-critical and mission-essential information systems. In
     addition, section 811 requires identification of interfaces between the registered
     systems and other information systems and the development and maintenance of
     contingency plans for the systems registered with the DoD CIO. Section 811
     requires registration information to be updated quarterly and requires each
     system to have an appropriate information assurance strategy as determined by
     the CIO. Section 811 prohibits awarding any contract for any system not
     registered with the DoD CIO. Section 811 supersedes section 8121,
     “Certifications as to Compliance with the Clinger-Cohen Act,” of the FY 2000
     DoD Appropriations Act. The DoD CIO and DoD Components provided
     examples of reusing the Y2K inventory database for section 811 registration.
     However, the DoD Information Technology Registry, used for section 811
     registration, records only whether the system has interfaces. According to DoD
     CIO representatives, ASD(C3I) relies on other databases, such as at the
     Component level, to identify the specific interface.

Principal Staff Assistants
     The communications, financial, health affairs, logistics, and personnel
     communities applied Y2K lessons learned to include the reuse of data,
     management structure, configuration management, and end-to-end testing.
     However, the number and types of lessons learned that were applied varied
     among the PSAs.

     Under Secretary of Defense (Comptroller). In 2000, the DoD Chief Financial
     Officer (CFO) began efforts to institute a Y2K-type management approach to the
     DoD Financial and Feeder Systems Compliance Process, which entailed the


                                         4
implementation of a similar five-phased approach for ensuring that DoD critical
finance, accounting, and feeder systems meet Federal financial management
requirements. The process, which was recommended by the Inspector General,
DoD, and endorsed by the General Accounting Office, includes lessons learned
from the year 2000 such as:

       •   requiring senior leadership involvement,

       •   defining criticality of systems,

       •   identifying required interfaces for all Components’ critical feeder
           systems and the Defense Finance and Accounting Service core
           accounting and finance systems, as well as other systems that
           originate financial transaction data,
       •   requiring up-front mapping of data flows,

       •   establishing Memorandums of Agreement between feeder system
           owners and the Defense Finance and Accounting Service,

       •   assessing the compliance problem(s),

       •   developing and implementing corrective action plans,

       •   requiring end-to-end testing of integrated financial management
           systems, and

       •   requiring independent audit verification of compliance.

The process was not formalized until January 2001, and it remains to be seen
whether the change of administration will affect its implementation. We
continue to believe that it can be an excellent way to coordinate the overall
modernization of DoD financial management systems effort.

Logistics. The Deputy Under Secretary of Defense (Deputy Under Secretary)
applied Y2K lessons learned, including reusing data from Y2K and partnering
with DoD, commercial, and university leaders.

           Operational Architecture. The Deputy Under Secretary and the
U.S. Transportation Command used the mission-critical threads (thin-lines) that
they identified during Y2K end-to-end testing as the foundation for their
operational architecture. In addition, the Deputy Under Secretary recaptured
the thread information as the first level of data in its modeling and simulation
tool called “G2.” G2 will use the data to document the baseline for future
logistics information technology modernization.

          Logistics Integration Center. Through the Y2K end-to-end testing
and operational architecture efforts, the Deputy Under Secretary identified the
need to review business rules and consider network-centric solutions already in
use in commercial industry. The Logistics Integration Center was an initiative
to focus on those considerations through partnerships with the Supply Chain


                                     5
Integration Center, based at the University of Maryland; the Joint Logistics
Warfighting Initiative; the Enterprise Integration Center; and other industry
leaders, such as Manufacturing Technology, Inc.

Health Affairs. The Assistant Secretary of Defense (Health Affairs) reused
data obtained during Y2K and applied lessons learned to configuration
management, end-to-end testing, and Memorandums of Agreement.

          Change Order Process. The Office of the Assistant Secretary of
Defense (Health Affairs) uses the change order process to manage changes to
contracts with external business partners. Although the change order process
existed prior to Y2K, the Assistant Secretary of Defense (Health Affairs)
streamlined the process to support the timelines required by Y2K. The result
was a simplified and more direct process that enabled the Military Health
System and its contractors to identify needed changes, communicate strategies,
develop timelines and expectations, and implement changes in a more timely and
effective manner. That streamlined process continued after Y2K and has
enhanced communications, cooperation, and the efficiency and effectiveness of
changes to information technology throughout the Military Health System.

          Configuration Management. The Y2K effort provided a more
accurate representation of system configurations through the use of tools such as
the Military Health System Integrated Program Planning, Scheduling, and
Reporting System, which has been maintained post-Y2K. During the
Y2K program, the Military Health System realized that, to reduce
vulnerabilities, it needed to increase the information on system software,
hardware, and firmware configurations at the site level. The Military Health
System carried this Y2K lesson learned forward into its certification and
accreditation process by tracking system configurations to ensure that no
modifications will affect security accreditation.

           End-to-End Testing. The Assistant Secretary of Defense (Health
Affairs) conducted end-to-end testing on one of the Military Health System’s
core systems. Prior to Y2K, system testing included testing only the interface
between two systems. However, during Y2K, the interface testing was
combined with functional testing of a complete line of interconnected systems to
test the functional flow as well as the interfaces and communications systems at
the same time.

          Memorandums of Agreement. The Medical Treatment Facilities
routinely established memorandums of agreement with public and private sector
partners to meet a variety of needs. To meet Y2K contingencies, the Medical
Treatment Facilities expanded the use of memorandums of agreement to ensure
uninterrupted patient care and the continued operation of the facility. In
addition, the Military Health System encourages the Military Treatment
Facilities to re-evaluate and, when needed, update the memorandums of
agreement on an annual basis.

Communications. The Office of the Secretary of Defense (C3I) applied lessons
learned in end-to-end testing. The Joint User Interoperability Communications
Exercise is an annual exercise for the Services, Reserve units, and the Defense


                                    6
    Information Systems Agency (DISA). Although the exercise existed prior to
    Y2K, it had focused only on tactical switches. Since Y2K, the exercise was
    expanded to focus on the interoperability of the participant’s communications
    systems.

    Weapon Systems. The PSA for weapon systems did not retain oversight of
    Y2K lessons learned applications. The PSA representative provided us with a
    list of points of contact from Service program executive offices to determine the
    application of Y2K lessons learned. However, because we focused at the PSA
    level to determine the application of Y2K lessons learned, we did not extend our
    audit steps to the Program Executive Office level.

    Personnel. The Office of the Under Secretary of Defense (Personnel and
    Readiness) referenced Y2K efforts and products in the draft Defense
    Infrastructure Sector Assurance Plan for the Personnel Sector. For example, the
    plan requires the Personnel Sector to review and update Y2K system
    contingency plans and thin-line thread plans as appropriate. The plan also
    requires the Personnel Sector to use mission-critical thin-lines, operational
    thread plans, Y2K contingency and continuity of operations plans, and Y2K
    response and recovery criteria for Critical Infrastructure Protection (CIP)
    purposes.

Assistant Secretary of Defense (Command, Control,
  Communications, and Intelligence)
    Using the relationships established during the Y2K conversion, the ASD(C3I), as
    the DoD CIO, continued to foster communications within DoD through the DoD
    CIO Executive Board, the DoD CIO worldwide conference, and the Information
    Knowledge Exchange Portal. Additionally, the CIP Directorate under Security
    and Information Operations adapted Y2K management approaches and concepts
    in preparing for protection of critical infrastructure. However, in managing
    other cross-cutting information technology initiatives, the DoD CIO had not
    taken full advantage of its Y2K experience, as discussed in finding B.

              Continued Communications. The DoD CIO fostered
    communications within DoD, through the DoD CIO Executive Board, the DoD
    CIO worldwide conferences, and the Information Knowledge Exchange Portal.
    DoD CIO representatives stated that the Y2K conversion resulted in a greater
    emphasis for the CIO Executive Board. Additionally, the DoD CIO adapted the
    Y2K management processes to the DoD CIO Executive Board process.
    According to DoD CIO representatives, the Board discusses and prioritizes
    information technology issues similar to the prioritization and discussions of
    Y2K issues during Senior Steering Group meetings. The DoD CIO also held a
    worldwide DoD CIO conference in August 2000 and plan to hold another in
    September 2001. Conferees discuss CIO issues and foster communications
    among the Office of the Secretary of Defense, the PSAs, the Joint Staff, and
    Unified Commands. The Information Knowledge Exchange Portal allows users
    to exchange information using the web. Currently, 150 users have access to the
    portal, including the DoD CIO Executive Board members, the Office of the


                                        7
     Secretary of Defense, the PSAs, the National Security Agency, and DISA. The
     portal is intended to facilitate collaboration on policy development and exchange
     of information. The users can create links to documents, charts, action
     databases, and calendars to share with other users. The portal contains
     information on Clinger-Cohen Act compliance, Public Key Infrastructure, and
     the Global Information Grid.

                Critical Infrastructure Protection Plan. The CIP Directorate was
     adapting Y2K developed management approaches and concepts, such as
     guidance, thin-lines, exercises, and integration of the warfighter in preparing for
     protection of critical infrastructure. Critical infrastructure protection ensures the
     reliability of physical and cyber critical infrastructure. As a result of Y2K, the
     CIP Directorate developed an operational readiness focused DoD CIP directive.
     As of August 2001, the CIP Directorate was updating the draft directive based
     on comments received. Additionally, leveraging Y2K experience, the CIP
     Directorate was conducting outreach efforts to ensure infrastructure awareness
     and to create physical and cyber infrastructure thin-lines directly linked to
     Commander in Chief and Joint Component operational plans and mission
     requirements. The CIP Directorate also leveraged Y2K operations and
     consequence management training efforts by integrating CIP related Military
     Significant Event List items into the Pacific Command Exercise Reception,
     Staging, Onward Movement, and Integration-00 and the Joint Staff Positive
     Force-01. A CIP representative stated that physical infrastructure included in
     the exercises was a result of Y2K. The CIP representative emphasized that an
     important lesson learned from the Y2K experience was that CIP must address
     both cyber and physical infrastructure reliability issues and be driven by
     warfighter mission and capability requirements. In order to integrate the
     warfighter into the CIP process, the Joint Staff attended the CIP integration staff
     meetings, that included representatives from all critical infrastructure providers.
     On December 7, 2000, the ASD(C3I) reestablished the CIP Directorate and built
     a management structure under the Deputy Assistant Secretary of Defense for
     Security and Operations. The Deputy Assistant Secretary of Defense for
     Security and Operations also serves as the Deputy Critical Infrastructure
     Assurance Officer.

Director, Operational Test and Evaluation
     As described in the Director, Operational Test and Evaluation (DOT&E)
     FY 2000 Annual Report, DOT&E provided support for Y2K worldwide
     verification activities, including expert assistance for cross-functional, inter-
     Service, and cross-system testing. DOT&E also contributed significantly to
     operational evaluation planning and execution in all of the Unified Commands.
     Throughout the Y2K operational evaluations, two issues appeared with some
     regularity: the need for configuration management and the incompletely
     addressed or unresolved problems with joint interoperability. In addition,
     organizations had failed to exercise their systems and capabilities to make sure
     that they worked.




                                          8
    Since the conclusion of the Y2K operational evaluations, DOT&E has continued
    initiatives resulting from the Y2K work. The DOT&E sponsored
    representatives at the U.S. European Command, the Joint Forces Command,
    and United States Forces Korea, who work in areas related to operations
    planning, command, control, communications, and interoperability. During
    August 2000, DOT&E sent a team of nine people to support activities of
    United States Forces Korea’s annual Ulchi-Focus Lens 2000 command post
    exercise. That effort, which used the thin-lines methodology developed for the
    Y2K operational evaluations, concentrated on activities related to understanding
    and improving operational processes for preparing target nominations in the
    development of the Integrated Tasking Order, and on disseminating intelligence
    with emphasis on requests for information and intelligence summaries.

    DOT&E suggested that because the Command, Control, Communication,
    Computer, and Intelligence infrastructure is in a state of continual change, and
    because the operational evaluations helped in identifying architectures and
    thin-line critical systems, DoD should consider institutionalizing periodic
    operational evaluations that would focus on interoperability once every 3 or
    4 years. Such periodic exercises would update the Unified Commands’
    assessments of their ability to meet mission requirements, allow them to verify
    the interoperability of existing systems and new programs, and identify those
    systems that could be eliminated.

Other DoD Components
    The Army, Navy, Air Force, National Guard, DISA, and Joint Staff applied
    lessons learned from Y2K conversion efforts; however, the application varied
    among and within the DoD Components.

    Lessons Learned Applied by the Army. The Director, Information Systems
    (Command, Control, Communications, and Computers) [The Director], reused
    the Y2K inventory database as a starting point to determine which Army
    systems to public key-enable. Public key-enabled applications interoperate with
    DoD public key infrastructure to access public key certificates and general
    information in public directories or repositories. Within the Army, the Office
    of the Deputy Chief of Staff for Personnel Systems of Systems Architecture -
    Human Resources reused many data elements produced from Y2K to create a
    database of human resource systems.

              Public Key Enabling of Applications. The Director reused the
    Y2K Army inventory database to assist in developing a list of Army applications
    to public key-enable. The Y2K inventory database was used to identify all
    Army mission-critical and mission-essential applications to prioritize which
    systems to public key-enable.

              Personnel Systems of Systems Architecture - Human Resources.
    The Army Office of the Deputy Chief of Staff for Personnel Systems of Systems
    Architecture - Human Resources reused the Army Y2K inventory database as a
    starting point for the Personnel Systems of Systems Architecture - Human
    Resources web-based database. The system users maintain and update the Y2K


                                        9
data for users to evaluate the impact of a system or procedure change on other
systems. The Personnel Systems of Systems Architecture - Human Resources
database contains information on Army human resource systems and their
interfaces. Reused Y2K system data includes information on hardware,
software, thin-lines, and interfaces. Human Resources also reused Y2K manual
contingency procedures that were combined with thin-line information to
develop diagrams to map the information flow for business processes.

Lessons Learned Applied by the Navy. The Navy CIO reused data collected
during Y2K to populate the Navy information technology architecture database.
Within the Navy, the Naval Systems Command developed a website for
improved configuration management.

         Navy Information Technology Architecture Database. The Navy
CIO used the Y2K inventory database to populate the Department of the Navy
Integrated Architecture Database. The inventory data collected for Y2K was
used as a starting point for a complete inventory of applications for the Navy-
Marine Corps Internet.

          Software Update and Registration Website. The Naval Systems
Command applied the Y2K lesson learned of improved configuration
management. The Naval Systems Command developed a website for
3,000 users of the software, GateGuard, to obtain the software update and to
register that the update was completed. The registration process also resulted in
an accurate database of commands and points of contacts. That process has not
yet been implemented Navy-wide.

Lessons Learned Applied by the Air Force. The Air Force CIO reused the
Y2K inventory database for the Systems Compliance Database and established
11 focus groups to lead key information technology initiatives. The Air Force
CFO reused the five-phased approach from Y2K for the CFO process. Within
the Air Force, the Deputy Chief of Staff for Installation and Logistics planned to
consolidate and reduce the number of logistics systems to achieve improved
system management.

          System Compliance Database. The Air Force CIO reused data
captured in the Air Force Y2K inventory database to populate the System
Compliance Database, which is used to better manage information technology
investments. The database was expanded to include other data elements and
also maintains data captured for Y2K purposes. The Systems Compliance
Database tracks systems for section 811 registration; the Air Force-unique
Certificate of Networthiness status; Certification and Accreditation status; and
the Command, Control, Computers, and Communication systems with the
Intelligence Support Plan. Additionally, the database is a management tool for
information technology issues such as the Air Force portal and the Global
Combat Support Systems framework.

         Information Technology Focus Groups. The management process
developed to manage the Y2K conversion experience was a positive influence in
the development of the focus groups established within the office of the Air
Force CIO to manage information technology issues. The 11 focus groups were


                                    10
chartered to lead the way in adopting private industry’s best practices for the
creation of a network-centric Air Force. Focus areas include the Air Force
portal, server consolidation, communications computing transport layer
architectures, information assurance architectures, and the Air Force Enterprise
Concept of Operations.

        Financial System Operations. The Air Force was one of the first
DoD Components to adopt the Y2K Management Plan’s five-phase process--
awareness, assessment, renovation, validation, and implementation--for the
improvement of their financial system.

           Consolidation of Systems. The Air Force Deputy Chief of Staff for
Installation and Logistics issued a memorandum on May 10, 2000, requesting
functional managers to consolidate and eliminate systems within a certain
timeframe to attain an integrated system for installations and logistics
information. The objectives were to better support the warfighter, to streamline
and measure the performance of operations, and to reduce the cost of operating
information systems. The business process used to handle Y2K events was a
driving force behind the logistics policy.

Lessons Learned Applied by the National Guard. The Army National Guard
used information from the Y2K inventory database as a starting point in the
continued development of the Army National Guard Enterprise Architecture.
The systems identified in the inventory, both hardware and software, served as a
reference point for determining the function of the operating system currently
required within the Army National Guard. Additionally, the Army National
Guard uses the inventory information for the continued development of systems
by comparing and exploring existing system functions and designs to meet the
functional requirements of the users. To better manage its inventory and keep it
current, the Army National Guard was developing a web application using the
inventory developed during Y2K to identify whether each inventory application
was a commercial off-the-shelf, Government off-the-shelf, or an in-house
application. The Air National Guard updates the software inventory used
during Y2K whenever changes are necessary for software maintenance or
upgrades.

Lessons Learned Applied by the Defense Information Systems Agency.
DISA reused the Y2K inventory database to develop its technical architecture
and interface control documents to identify all interfaces. In addition, DISA
annually updates its contingency plans that were developed during Y2K. DISA
Western Hemisphere also continues the configuration management efforts that it
began for Y2K conversion efforts.

          Reusing Inventory. DISA reused the Y2K inventory of applications
as a baseline for the development of its technical architecture. The inventory
was also used to develop the system’s view of DISA architecture, which
includes identifying interfaces and components that make up the system. In
addition, the Y2K inventory was also incorporated into the DISA Certification
and Accreditation process to be used as a system review, which includes the
identification of interfaces, the components that make up the system, and the
data flow, before the system is accredited.


                                   11
              Updating Interface Control Documents. Reviewing and updating
    interface control documents were critical to the Y2K process because that
    process brought about the need for defining interfaces. DISA renewed its effort
    on the identification of interfaces and, as part of that effort, requires an Interface
    Control Document as an entrance requirement for any new interface. DISA
    updates the interface control documents when the interfaces are tested, based on
    testing results.

             Updating Contingency Plans. The Y2K conversion efforts helped
    DISA to formalize contingency plans for systems. DISA also continues to
    annually update those contingency plans to include incorporating contingency
    planning for distributed denial of service attacks through the Internet.

             Maintaining Configuration Management. DISA Western
    Hemisphere continues to maintain two areas of the configuration management
    database that underwent significant changes during Y2K.

               •   All associated information about customer application running on
                   the mainframe and the software versions, which run at different
                   locations, proved to be a valuable addition to the inventory and
                   gave the enterprise useful information about the applications.

               •   DISA Western Hemisphere tracked executive software at a more
                   granular level, including the version levels and vendor patch
                   information, and added tables to associate specific products with
                   customer applications. The information contributes significantly
                   to software optimization and cost savings.

    Joint Staff. The Joint Staff published 12 lessons learned in the “Year 2000
    Campaign Plan, Volume 1”; however, only 2 of the 12 lessons were adapted.
    The Joint Staff established CIOs and developed a prototype Joint Operational
    Architecture. In creating the prototype Joint Operational Architecture, the Joint
    Staff did reuse some thin-lines developed during Y2K, but it was only a small
    part of the information used from other sources.

Conclusion
    The PSAs, ASD(C3I), and other DoD Components provided examples of
    applying Y2K lessons learned. Appendix B provides a more detailed matrix of
    lessons learned for the following categories: data reuse, adaptation of
    management experiences, senior management involvement, and continuing
    partnerships. Appendix C explains these categories and summarizes discussions
    with DoD Components and PSAs on the lasting impact of Y2K. The DoD
    Components applied Y2K lessons learned in a variety of ways. However, the
    DoD CIO did not take full advantage of using Y2K lessons learned to lead the
    way in managing information technology investments and information
    assurance.




                                         12
                   B. DoD Chief Information Officer
                      Application of Year 2000 Lessons
                      Learned
                   The DoD Chief Information Officer had not readily adapted its Y2K
                   experiences to managing information assurance and information
                   technology investments. The DoD Chief Information Officer missed
                   opportunities to proactively adapt management approaches, knowledge,
                   and data on systems and interdependencies gained through the Y2K
                   conversion process to managing the security of DoD systems.
                   Additionally, the DoD Chief Information Officer had not shown where
                   Y2K lessons learned were adapted for managing information technology
                   investments, as reported to Congress. As a result, the task of responding
                   to congressional and Office of Management and Budget requirements for
                   ensuring that systems and networks are reasonably secure, particularly
                   with respect to the Government Information Security Reform
                   requirements, and for complying with the Clinger-Cohen Act1 has been
                   made even more difficult.

Year 2000 Data and Management Experiences
           During the process of preparing for Y2K, DoD developed data and processes
           that were applicable to managing information assurance and information
           technology investments. However, between January and February 2000,
           individuals assigned to address the Y2K challenge were released and assigned
           other duties. Because of the release of these personnel, DoD lost their
           knowledge and information gained through the Y2K conversion.

           Information Assurance. The ASD(C3I) as the DoD CIO issued the DoD Year
           2000 Management Plan to provide a management approach, planning strategy,
           policy, and actions that enabled DoD to address the Y2K challenge.
           Additionally, DoD created a database that listed its information technology
           systems; identified the interfaces between systems; developed thin-lines, which
           detailed the systems that worked together to complete a particular warfighting
           mission; and conducted operational evaluations on how processes would
           continue if key systems failed. Further, the Services and several Defense
           agencies purchased code-scanning tools.

           Information Technology Investments. During the Y2K conversion,
           DoD Components clearly appreciated the importance of the interoperability of
           systems and prioritized and invested resources to verify Y2K compliance for the
           most critical systems and interfaces. DoD Components realized that the inputs,
           outputs, and interfaces between systems must all work together to successfully
           perform a mission. DoD used integration testing, continuity of operations

1
    Public Law 104-106, Clinger Cohen Act of 1996, Division E, “Information Technology Management
    Reform,” formally the Information Technology Management Reform Act.



                                                  13
    plans, and thin-line architectures to prioritize and manage Y2K compliance
    efforts within core business and mission areas. The integration testing
    concentrated on end-to-end testing of business functions and warfighter missions
    necessary to carry out the national military strategy. DoD used the continuity of
    operations plans as high level plans designed to ensure that the capability to
    perform a core mission or function would continue despite disruptions to
    supporting systems. Thin-line architectures provided insights into warfighting
    tasks and the reliance on information technology systems. Through these Y2K
    conversion efforts, DoD senior managers became more aware of the enterprise-
    wide architectures, missions, business areas, and information technology within
    DoD.

Information Assurance
    The DoD CIO did not take full advantage of Y2K experiences because the DoD
    CIO missed opportunities to apply lessons learned to information assurance.
    Several missed opportunities included ensuring the implementation of Joint
    Staff-developed lessons learned for information assurance, developing overall
    management guidance for information assurance, reusing the Y2K inventory
    database to track a system’s security status and certification and accreditation
    date, and renewing licenses for code-scanning tools.

    Congressional Report 106-244. In Report 106-244 from the FY 2000 DoD
    Appropriations Bill, the Committee on Appropriations stated that the steps taken
    for dealing with the Y2K conversion process were directly related to addressing
    information assurance. Additionally, the Committee requested a report on
    lessons learned from Y2K with particular emphasis on what lessons could be
    applied to information assurance. The ASD(C3I) report to the congressional
    Defense committees on Y2K lessons learned, required by Report 106-244,
    provided the following three statements of lessons learned that the Joint Staff, in
    coordination with the Unified Commands and other DoD Components, could
    apply to information assurance.

       •   Consider databases, thin-lines, and leftover documentation for reuse in
           information assurance.

       •   Code-scanning tools had many positive management benefits for future
           information assurance and information technology initiatives, and DoD
           would renew licenses for the tools.

       •   Incorporate information assurance, critical infrastructure protection,
           interoperability, and configuration management into routine exercises
           and training.

    The Joint Staff representatives did not provide examples that showed lessons
    learned had been applied.




                                        14
The ASD(C3I) report did not state how the DoD CIO would apply Y2K lessons
learned to managing information assurance. However, the DoD CIO concluded
in the report that “the DoD Y2K effort has laid a firm foundation for longer
term improvements in managing and protecting information technology
systems….”

Developing Guidance. The ASD(C3I) as the DoD CIO issued the DoD Year
2000 Management Plan to provide DoD with centralized policy and oversight in
preparing for Y2K. The plan included specific procedures for Y2K reporting
and certification requirements of DoD Components. The plan also included a
description of the five-phase Y2K management process that DoD Components
were to use. As discussed in finding A, some PSAs and DoD Components did
adapt their Y2K system inventory for managing security certification and
accreditation. If the DoD CIO had taken steps to develop guidance on
information assurance similar to the procedures in the DoD Y2K Management
Plan, clear direction could have been provided for the PSAs and DoD
Components and a DoD-wide perspective for tracking security status.

Tracking Security Status. During Y2K, the DoD Y2K office maintained the
DoD Y2K database for mission-critical information technology systems to
provide the DoD CIO and CIOs of DoD Components with the visibility
necessary to ensure a thorough and successful Y2K transition. Each agency
reported on the status of its mission-critical systems, including information on
the number of systems that were Y2K compliant, being replaced, repaired, and
retired. The ASD(C3I) as DoD CIO used the information to perform oversight
and compiled the information for submission to the Office of Management and
Budget.

The FY 2001 Defense Authorization Act (Public Law 106-398), Title X,
Subtitle G, “Government Information Security Reform,” was promulgated to
improve oversight of Federal agency information security programs. Each year,
the applicable agency head must submit to the Director, Office of Management
and Budget, an assessment of the security program and the systems’ security.
The Act also requires the Director, Office of Management and Budget, to
submit a report to Congress summarizing the information received from each
agency.

The DoD CIO should have adapted the Y2K reporting mechanism to oversee
compliance with the Government Information Security Reform requirements.
The DoD CIO is in the process of responding to the Government Information
Security Reform requirements but missed the opportunity to provide a better
foundation for managing information security by not readily adapting
management experiences and knowledge gained during Y2K conversion.

Tracking Certification and Accreditation. In preparing for Y2K, the DoD
CIO tracked the status of the Y2K certification for each system. The DoD Y2K
Management Plan required Components to provide the date and level of Y2K
certification for mission-critical systems for input into the DoD Y2K database.




                                   15
    DoD Instruction 5200.40, “DoD Information Security Certification and
    Accreditation Process,” December 30, 1997, implements policy, assigns
    responsibilities, and prescribes procedures for certification and accreditation of
    information technology, including automated information systems, networks,
    and sites in DoD. DoD Instruction 5200.40 assigns oversight responsibility to
    the ASD(C3I) to ensure that each designated approving authority implements and
    maintains the DoD Information Technology Security Certification and
    Accreditation Process for DoD Component and DoD contractor information
    technology and networks under its jurisdiction.

    The DoD CIO could have taken advantage of an opportunity to use the Y2K
    database as a starting point for overseeing the Certification and Accreditation
    process required by DoD Instruction 5200.40.

    Reusing Y2K Analysis and Renovation Tools. DoD used analysis and
    renovation tools during Y2K as part of the independent verification and
    validation process to detect missed date fields and invalid date-processing logic
    and to validate corrected code. The DoD-provided tools, McCabe Visual 2000
    and Mercury Interactive WinRunner 2000, allowed users to analyze programs
    for errors and to test them after repairs or upgrades were made.

    In an August 11, 1999, memorandum, “Use of Department of Defense Provided
    Tools for Software Testing,” the Office of the Assistant Secretary of Defense
    (C3I) stated that the McCabe tool could also be used for information assurance.
    Additionally, DoD Y2K lessons learned reports mentioned the importance of
    reusing the code-scanning tools. For example, the Air Force report
    recommended that independent verification and validation procedures become an
    integral part of configuration management.

    The DoD Information Security Certification and Accreditation Process consists
    of the definition, verification, validation, and the post-accreditation phases. The
    goal of the verification phase is to produce a fully integrated system ready for
    certification testing by verifying system compliance with security requirements.
    The formal certification test and the decision to accredit the system is performed
    in the validation phase. DoD did not take advantage of reusing code-scanning
    tools for validation and verification under the DoD Information Security
    Certification and Accreditation process. Routinely using the DoD-provided
    tools would significantly enhance DoD software maintenance and quality
    surveillance efforts in the future. The DoD CIO representatives stated that
    although the tools were necessary, the Services did not want to fund them and
    the DoD CIO did not require their use.

Information Technology Investments
    The DoD CIO did not take full advantage of Y2K experiences because the DoD
    CIO missed opportunities to apply lessons learned to information technology
    investments, particularly with respect to portfolio management. The ASD(C3I)
    report to the congressional Defense committees stated that the CIO lessons apply




                                        16
to DoD efforts to achieve compliance with the Clinger-Cohen Act; however, the
report did not specify how the DoD CIO planned to use lessons learned to
manage information technology investments.

Business or Mission Area Focus. The Y2K conversion process not only drove
the identification of individual mission-critical systems and interdependencies,
but also resulted in the identification of core business and mission areas. As a
consequence, DoD focused Y2K end-to-end testing requirements on the most
crucial of operations and business functions and their underlying infrastructure
of interconnected systems. The DoD CIO could have used the already
identified core processes, missions, and systems in its efforts to manage
information technology investments.

           Information Technology Investment Management. The Clinger-
Cohen Act requires an analysis of the missions and business areas before
making significant investments in information technology. That analysis would
require an understanding of their underlying portfolios of information
technology investments in systems and networks. Additionally, DoD Directive
5000.1, “The Defense Acquisition System,” October 23, 2000, states that the
acquisition community should adopt “a family-of-systems management approach
to ensure that their reviews of individual systems include a thorough
understanding of critical system interfaces related to the system under review.”
DoD Components performed analysis of core business and mission areas and
their critical systems and interfaces as part of their Y2K conversion efforts.
Also, ASD(C3I) was developing portfolio management to change the way of
investing in information technology systems from focusing on reviews of
individual systems to “portfolios” of information technology investments.
Portfolios were to be established by grouping information technology
investments by mission-related or administrative processes. The ASD(C3I)
representatives envisioned that portfolio management would be an ongoing,
collaborative process, performed by stakeholder teams representing all life-cycle
activities, and driven by mission outcomes and contribution to the mission.
Y2K lessons learned on core business and mission areas and their underlying
portfolios of critical systems and interfaces could have been used to formulate
an approach to managing information technology investments in a more
disciplined manner. However, as of August 2001, the guidance initiated by
ASD(C3I) on portfolio management remained in draft and portfolio management
had not yet been implemented by ASD(C3I).

         Information Technology Retirement and Modernization. We asked
the DoD Components and PSAs if Y2K aided in accelerating the retirement of
legacy systems and in modernizing information technology systems. Several
DoD Components and PSAs tracked the accelerated retirement of legacy
systems and accelerated modernization of systems. The Army, Air Force,
DISA, Army National Guard, and the PSA for Personnel all provided examples
of systems retired early because of Y2K. DISA, the Army National Guard, and
the PSA for Communications provided examples of systems that were
modernized early because of Y2K. According to DoD CIO representatives,
many systems were replaced or terminated rather than repaired as a conscious
information management strategy. Replacement strategy systems were those
that were taken out of the inventory and replaced by one or more existing or


                                   17
    new systems prior to January 1, 2000. Termination strategy systems were those
    that were turned off prior to January 1, 2000. There were 95 mission-critical
    and 412 nonmission-critical replacement strategy systems and 127 mission-
    critical and 1,177 nonmission-critical termination strategy systems.

    A portfolio approach could continue to help identify modernization needs and
    retirement or replacement of legacy systems. The Clinger-Cohen Act states that
    information technology should be evaluated to determine whether to continue,
    modify, or terminate a program or project. Systems should be retired if their
    elimination would not disrupt accomplishing a mission, or systems should be
    replaced if more efficient products exist, such as commercial off-the-shelf
    products.

    Other Uses of Y2K Inventory Database. DoD CIO representatives stated that
    the Y2K inventory database, now called the DoD Information Technology
    Registry, was used for the section 811 registration. The DoD CIO
    representatives mentioned that they could be doing more with the database, in
    addition to tracking section 811 registration, but had not identified the necessary
    additional information. For example, the DoD CIO representatives mentioned
    that the database could track CFO compliance or date-windowing compliance.
    Date-windowing was used as a temporary solution for Y2K problems by
    converting 2-digit dates into 4-digit dates when needed. However, date-
    windowing does not change the 2-digit dates throughout the system’s data and
    will only interpret the date correctly for the appropriate century when used
    within a certain window of time. When the window expires, the system will
    interpret dates incorrectly; therefore, the system must be repaired, replaced with
    new technology, or retired because it is no longer useful. Draft guidance,
    “Repairing Latent Year 2000 Defects Caused by Date Windowing,” was
    prepared by the Office of the ASD(C3I). However, as of August 2001 the
    guidance had not been issued. DoD may lose oversight of the date-windowed
    systems if guidance is not issued.

Implementing Year 2000 Lessons Learned
    In preparing for Y2K, DoD developed complete inventories of information
    technology. Thin-lines were established, which could have assisted in focusing
    information assurance requirements on the most critical systems. Contingency
    plans were prepared or updated to assist in ensuring that processes continued
    during system failures. End-to-end test plans were available for adaptation to
    test for identifying information assurance vulnerabilities on systems that were
    interconnected. This was particularly important because of the interconnection
    of systems between Services and agencies. Also, core mission and business
    areas were identified that could have been used in managing information
    technology investments. The magnitude of the Y2K conversion effort will
    probably not occur again. Therefore, the DoD CIO must not ignore the benefits
    of the knowledge and experience gained when managing future information
    assurance and information technology investments.




                                        18
Recommendations, Management Comments, and Audit
  Response
    We recommend that the Assistant Secretary of Defense (Command,
    Control, Communications, and Intelligence), as the Chief Information
    Officer, DoD:

           1. Establish a written DoD management plan for information
    assurance compliance that will oversee the Certification and Accreditation
    process required by DoD Instruction 5200.40, “DoD Information
    Technology Security Certification and Accreditation Process,”
    December 30, 1997 and that will respond to the requirements of
    Government Information Security Reform.

    Management Comments. The Acting Assistant Secretary of Defense
    (Command, Control, Communications, and Intelligence) concurred and stated
    that the Government Information Security Reform Integrated Process Team was
    directed to develop a plan for Government Information Security Reform
    implementation. The second phase of the plan leveraged the assessment
    mechanism from the Defense Information Technology Security Certification and
    Accreditation Process.

    Audit Response. We consider management comments to be partially
    responsive. The implementation plan developed by the Government Information
    Security Reform Integrated Process Team primarily focuses on the Government
    Information Security Reform requirements for FY 2001. The Assistant
    Secretary of Defense (Command, Control, Communications, and Intelligence)
    should also have a DoD management plan that oversees the certification and
    accreditation process for information systems and networks, using the DoD
    information technology registry as a starting point. Accordingly, we request
    additional comments on a DoD management plan that specifically discusses
    oversight and guidance on information systems and networks that require
    certification and accreditation.

           2. Assess the cost-effectiveness of purchasing new licenses for
    analysis and renovation tools to use in detecting defects or abnormalities in
    software.

          3. Implement a mission or business area approach for managing
    information technology investments in accordance with the Clinger-Cohen
    Act and DoD Directive 5000.1, “The Defense Acquisition System,”
    October 23, 2000.

           4. Implement an oversight process for complete repair, retirement,
    or replacement of systems that used date-windowing techniques during the
    year 2000 conversion process.

    Management Comments. The Acting Assistant Secretary of Defense
    (Command, Control, Communications, and Intelligence) concurred with


                                      19
Recommendations 2., 3., and 4. Management will continue to assess the
commercial market for analysis and renovation tools to use in detecting defects
or abnormalities in software. Along these lines, management will consider
funding a series of studies and publishing guidelines based upon them to assist in
determining the best mix of analysis and renovation tools.

The Deputy Chief Information Officer will undertake a thorough review and
reengineering of information technology investment and acquisition oversight.
The new information technology management and oversight concept includes
portfolios and families of systems reviews, which are a mission or business area
approach to managing information technology. Other components include
mission area management, to direct the mission from an enterprise perspective;
investment portfolios and families of systems to maximize total information
technology capabilities for mission outcomes; Global Information Grid
architecture and implementation to guide the evolution of portfolios and families
of systems; families of systems reviews to oversee total information technology
and ensure interoperability and architecture; rapid acquisition oversight to speed
delivery of effective information technology capabilities to users; and leadership
and partnership to establish central guidance with distributed execution.
Further, the oversight process for the repair, retirement, or replacement of
systems that used date-windowing techniques during the year 2000 conversion
process will be included in the family of systems reviews.




                                    20
Appendix A. Audit Process

Scope
    Work Performed. We reviewed and evaluated the application of lessons
    learned from Y2K within the Office of the DoD CIO, the Services, Joint Staff,
    DISA, the National Guard, and the PSAs for Health Affairs, Communications,
    Logistics, Personnel, and Weapon Systems. We focused our review on three
    main areas: data reuse, management structure and processes, and the
    continuation of partnerships from the year 2000. We interviewed personnel
    from each office who were involved with the Y2K conversion and familiar with
    any application of lessons learned from Y2K, if any. We compared the
    application of lessons learned among and within each of the Components.

    DoD-Wide Corporate Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goal and subordinate performance goal.

             FY 2001 DoD Corporate Level Goal 2: Prepare now for an uncertain
             future by pursuing a focused modernization effort that maintains U.S.
             qualitative superiority in key warfighting capabilities. Transform the
             force by exploiting the Revolution in Military Affairs, and reengineer
             the Department to achieve a 21st century infrastructure. (01-DoD-2)

             FY 2001 Subordinate Performance Goal 2.5: Improve DoD
             financial and information management. (01-DoD-2.5)

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objective and
    goal.

    Information Technology Management Functional Area.

             Objective: Reform information technology management processes to
             increase efficiency and mission contribution. Goal: Institute
             fundamental information technology management reform efforts.
             (ITM-3.2)

Methodology
    Audit Type, Dates, and Standards. We performed this economy and
    efficiency audit from December 2000 through May 2001, in accordance with
    auditing standards issued by the Comptroller General of the United States, as
    implemented by the Inspector General, DoD. We did our work in accordance
    with generally accepted Government auditing standards except that we were


                                      21
    unable to obtain an opinion on our system of quality control. The most recent
    external quality control review was withdrawn on March 15, 2001, and we will
    undergo a new review. We did not use computer-processed data for this audit.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available upon request.

    Management Control Program Review. We did not review the management
    control program because we identified no relationship between it and the overall
    audit objective.

Prior Audit Coverage
    General Accounting Office
    GAO Report No. AIMD-00-290, “Year 2000 Computing Challenge: Lessons
    Learned Can Be Applied to Other Management Challenges,” September 2000

    Inspector General, DoD
    Inspector General, DoD, Report No. D-2000-041 “Deficiencies in FY 1998
    DoD Financial Statements and Progress Toward Improved Financial
    Reporting,” November 26, 1999

    Army Audit Agency
    Report No. AA-00-214, “Summary of Year 2000 Audit Coverage – Lessons
    Learned,” March 31, 2000

    Memorandum Report No. AA 00-90, “Lessons Learned – Year 2000
    Audit/Consultation Effort,” November 24, 1999

    Naval Audit Service
    Assessment Report No. N2000-0024, “Y2K Lessons Learned,” May 1, 2000

    Memorandum: “Lessons Learned From Y2K Conversion,” September 30, 1999
    Air Force Audit Agency
    Memorandum: “Lessons Learned From Y2K Conversion,” September 30, 1999




                                       22
Appendix B. Matrix of Applied Year 2000
            Lessons Learned

                              Data Reuse
                                                           Adaptation
 Agency/                                                                    Senior
                 811        Other   Thin     CP/             of Y2K                     Continuing    Lasting
Component                                           MOAs                 Management
              Inventory   Inventory Lines   COOPs          Management                  Partnerships   Impact
  PSA                                                                    Involvement
                                                           Experiences
ASD (C3I)       Yes         N/E     N/E      N/E    N/E       Yes           Yes            Yes         Sig
  Army          Yes         Yes     Yes      Yes    N/E       N/E           Yes           N/E          Sig
  Navy          Yes         Yes     N/E      N/E    N/E       Yes           Yes            Yes         Sig
Air Force       Yes         Yes     N/E      N/E    N/E       Yes           Yes            Yes         Sig
 Marine
                N/E         N/E     N/E      N/E    N/E       N/E           Yes           N/E          Sig
 Corps
  DISA          Yes         Yes     N/E      Yes    N/E       Yes           Yes            Yes         Mod
  Army
 National       Yes         Yes     N/E      Yes    N/E       N/E           Yes            Yes         Sig
  Guard
   Air
 National       N/E         Yes     N/E      N/E    N/E       N/E           Yes           N/E          Min
  Guard
Joint Staff     N/E         N/E     Yes      N/E    N/E       N/E           Yes           N/E          Sig
  Health
                Yes         N/E     N/E      Yes    Yes       Yes           Yes            Yes         Sig
 Affairs
Personnel       N/E         Yes     Yes      Yes    N/E       Yes           N/E            Yes         Sig
  Com           N/E         N/E     N/E      N/E    N/E       Yes           Yes            Yes         Sig
Logistics       Yes         N/E     Yes      N/E    N/E       Yes           N/E            Yes         Sig
Weapons
                N/E         N/E     N/E      N/E    N/E       N/E           N/E           N/E          N/E
Systems



         Com                PSA for Communications
         CP/COOPs           Contingency Plans/Continuity of Operations Plans
         Min                Minimal Impact
         MOAs               Memorandums of Agreement
         Mod                Moderate Impact
         N/E                No Evidence provided of lesson learned application
         Sig                Significant Impact
         Yes                Partial or Overall application of lesson learned




                                                     23
Appendix C. Categories of Lessons Learned and
            Lasting Impact of Year 2000

Categories of Lessons Learned
    Data Reuse. During the audit, we asked the DoD Components and PSAs to
    provide examples of data collected during the Y2K conversion that proved
    useful for other purposes and to explain how those data were maintained.
    Examples of data reuse included system inventories, thin-lines, system
    contingency plans and organizational continuity of operations plans, and
    memorandums of agreement. The majority of DoD Components and PSAs
    stated that they had applied Y2K data to other information technology purposes.
    For example, the Army, the Joint Staff, and the PSAs for Personnel and
    Logistics provided examples of reusing Y2K thin-lines. On the other hand, the
    Marine Corps and the PSA for Communications did not provide examples of
    data reuse.

    Adaptation of Y2K Management Experiences. During the audit, we asked
    the DoD Components and PSAs to provide examples of Y2K management
    experiences that had been adapted to other information technology issues. We
    also asked them to provide examples of end-to-end tests or evaluations
    performed since the Y2K rollover. Most of the Components and PSAs were
    able to provide examples of applied Y2K management processes. For example,
    a DoD CIO representative and the PSAs for Health Affairs, Personnel,
    Communications, and Logistics provided examples of reusing the Y2K testing
    structure for other purposes. However, the Army, Marine Corps, National
    Guard, and Joint Staff did not provide examples for applied Y2K management
    processes.

    Senior Management Involvement. During the course of the audit, we asked
    the DoD Components and PSAs to discuss the extent to which senior managers
    and commanders from their respective organizations had remained closely
    involved in information technology issues since Y2K. The majority of DoD
    Components and PSAs stated that senior management had remained involved in
    information technology issues since Y2K. For example, senior management for
    ASD(C3I), Air Force, Army, DISA, Joint Staff, and the National Guard attends
    forums on information technology issues. The PSA for Health Affairs
    mentioned the high level of involvement in the change order process and the
    Health Insurance Portability and Accountability. The Navy, Marine Corps, and
    the PSA for Communications stated that senior management is still involved in
    information technology issues. On the other hand, the PSAs for Personnel and
    Logistics stated that senior management involvement is decreasing.

    Partnerships. We asked the DoD Components and PSAs if they had continued
    any of the partnerships with other DoD organizations, Federal agencies, States,
    and the private sector formed during Y2K. Most DoD Components and PSAs
    continued partnerships started or strengthened during the Y2K conversion
    process. DoD CIO representatives, the Navy, and the PSAs for Personnel,
    Communications, and Logistics, continued to attend forums on information


                                       24
    technology issues. DISA Western Hemisphere continued its strengthened
    relationship with customers. The Air Force continued its partnership with
    DISA. The PSA for Health Affairs continued partnerships with stakeholders
    strengthened during Y2K. The National Guard stated that communication
    improved between the functional and technical personnel. The Army, Marine
    Corps, and Joint Staff did not provide examples.

Lasting Impact of the Year 2000
    During the audit, we asked the representatives from the DoD Components and
    PSAs how they would characterize the lasting impact of the Y2K conversion on
    the way that their DoD Component or PSA manages information technology
    issues. The majority of DoD Components and PSAs characterized the lasting
    impact of the Y2K conversion process on the way senior management manages
    information technology issues as significant. For example, the Army,
    Air Force, and Navy characterized the impact as significant because Y2K
    increased the awareness of the significance of information technology, especially
    with senior management. Also, Y2K improved the software development
    process for the Air Force and increased Navy awareness of the weaknesses in
    some legacy systems. For the Marine Corps, Y2K improved new system
    development to prevent stovepipe development. Additionally, the Joint Staff
    and the PSA for Communications characterized the impact as significant because
    Y2K improved the modernization of information technology. For DoD CIO
    representatives, the impact was significant; however, the representatives
    realized that they missed some opportunities. DISA characterized the impact as
    moderate since Y2K did not affect the way it manages information technology;
    however, Y2K did increase awareness of the dependency on information
    technology. The Air National Guard characterized the impact as minor because
    it is responsible for only three systems.




                                       25
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)
  Deputy Assistant Secretary of Defense, Deputy Chief Information Officer
Assistant Secretary of Defense (Health Affairs)
Director, Operational Test and Evaluation

Joint Staff
Director, Joint Staff

Department of the Army
Chief Information Officer, Department of the Army
Inspector General, Department of the Army
Auditor General, Department of the Army
Chief, National Guard Bureau

Department of the Navy
Chief Information Officer, Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy
Inspector General, Marine Corps

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Chief Information Officer, Department of the Air Force
Inspector General, Department of the Air Force
Auditor General, Department of the Air Force
Chief, National Guard Bureau

Other Defense Organizations
Director, Defense Finance and Accounting Service
Inspector General, Defense Information Systems Agency



                                         26
Non-Defense Federal Organizations
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         27
Acting Assistant Secretary of Defense
(Command, Control, Communications, and
Intelligence) Comments




                 28
29
30
31
Audit Team Members
The Acquisition Management Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

Mary L. Ugone
Wanda A. Hopkins
Virginia G. Rogers
Maria R. Palladino
Melanie Livingston
W. Ryan Pusey
